Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




Nursing Home Resident Assessment

    Resource Utilization Groups




                   JUNE GIBBS BROWN
                    Inspector General

                      JANUARY 2001
                      OEI-02-99-00041
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of

Inspector General. It conducts short-term management and program evaluations (called

inspections) that focus on issues of concern to the Department, the Congress, and the public. The

inspection reports provide findings and recommendations on the efficiency, vulnerability, and

effectiveness of departmental programs. 


OEI's New York regional office prepared this report under the direction of John I. Molnar,

Regional Inspector General, and Renee C. Dunn, Deputy Regional Inspector General. Principal

OEI staff included:


REGION                                        HEADQUARTERS

Danielle Fletcher, Lead Analyst                   Susan Burbach, Program Specialist

Lucille Cop                                       Barbara Tedesco, Mathematical Statistician

Vince Greiber                                     Linda Moscoe

Steve Shaw                                        Brian Ritchie


* All staff in the New York Regional Office participated in this inspection.




   To obtain copies of this report, please call the New York Regional Office at 212 264-2000.
         Reports are also available on the World Wide Web at our home page address:

                                    http://www.hhs.gov/oig/oei
                     EXECUTIVE SUMMARY
PURPOSE

       To provide an initial review of the integration of the prospective payment system with the
       resident assessment.

BACKGROUND
       The Office of Inspector General undertook a series of nursing home inspections examining
       the quality of care in nursing homes. This report is a part of that series. A companion
       report, “Nursing Home Resident Assessment, Quality of Care,” provides a more detailed
       analysis of the components of the minimum data set.

       The Nursing Home Reform Act mandates that nursing facilities use a clinical assessment
       tool known as the Resident Assessment Instrument to identify residents’ strengths,
       weaknesses, preferences, and needs in key areas of functioning. The assessment is an
       integral part of the residents’ medical record. It is designed to help nursing facilities
       thoroughly evaluate residents and provides each resident with a standardized,
       comprehensive, and reproducible resident assessment. Upon completion of the assessment,
       the information guides the team to prepare individualized care plans for each resident. The
       minimum data set (MDS) is a component of the resident assessment which contains a
       standardized set of essential clinical and functional status measures.

       The prospective payment system for a Medicare Part A skilled nursing facility stay was
       phased into nursing homes between July of 1998 and January of 1999. This has raised a
       new dimension of issues and concerns and changed the significance of the resident
       assessment. Under the prospective payment system, skilled nursing facilities are required
       to classify residents into one of forty-four Resource Utilization Groups (RUGs-III) based
       on assessment data from the resident assessment.

       This inspection is based on information gathered from three different sources: a medical
       review of nursing home medical records for a sample of 640 nursing home residents, a
       self-administered survey of 64 nursing home MDS coordinators, and a telephone survey of
       64 nursing home administrators.

FINDINGS

Coding differences exist: both upcoding and downcoding

       The RUGs flow from the MDS and drive Medicare reimbursement to nursing homes
       under the prospective payment system. Residents are initially assigned to one of seven

   Nursing Home Resident Assessment:RUGs        i                                    OEI-02-99-00041
       major categories of RUGs and then are further classified into 1 of 44 minor RUG
       categories based on a MDS assessment. For 46 percent of the residents the nursing home
       coded the resident in a RUG that was higher than our reviewer. For the remaining 30
       percent, the nursing home coded the residents in a RUG that was lower than our reviewer.
       We tested the potential effect on reimbursement; it was not statistically significant.

Therapy minutes and activities of daily living are keys to RUG differences

       There are 108 MDS elements that are used in developing the RUG category for each
       Medicare resident. The minutes of therapy given to the residents is a key driver of the
       RUG reimbursement. The nursing home completes the MDS by recording the time the
       beneficiary spent receiving therapy. The therapy log includes both the time the beneficiary
       spent receiving therapy and other related activities. Our reviewers compared the number
       of minutes on the MDS to the time in the therapy logs and determined a difference to exist
       when the therapy time did not match. Thus, some difference is anticipated between the
       log and the MDS. One would expect the log to be higher than the MDS. However, we
       found that in most cases the MDS is higher. The nursing home more often coded the
       resident with more therapy minutes on their copy of the MDS than the therapy logs
       indicate. More specifically, we found that minutes of both occupational and physical
       therapy given in the last seven days show rates of difference between 39 and 46 percent
       respectively. Thirty-one percent of the occupational therapy records and 34 percent of the
       physical therapy records were coded in the MDS with more minutes.

       Further, Section G of the MDS, “Physical Functioning and Structural Problems” has a
       higher total rate of difference (37 percent) than any other section used to develop RUGs.
       Each field in Section G used in the RUG computation has a difference rate of at least 28
       percent.

Concerns were raised regarding PPS training and additional staff responsibility

       Ninety-three percent of MDS coordinators and 98 percent of nursing home administrators
       report that the introduction of PPS has given additional responsibilities to existing staff.
       However, about 40 percent of administrators and MDS coordinators note that new staff
       has been hired to handle PPS.

       Almost all MDS coordinators and nursing home administrators state that the staff received
       initial PPS training. However, 28 percent of MDS coordinators and administrators feel
       that their staff were inadequately trained about the Medicare PPS. Some cite that there
       was confusion and misunderstanding in the initial training sessions and express a need for
       additional training. Twenty-seven percent of MDS coordinators note that they receive on-
       going training and 60 percent of administrators say they have plans for additional PPS
       training sessions.



   Nursing Home Resident Assessment:RUGs        ii                                     OEI-02-99-00041
RECOMMENDATIONS

      This is an early alert raising concerns about the accuracy of the RUG codes. The fact
      that coding differences are both higher and lower indicates confusion or difficulties in
      implementing the MDS rather than an effort to “upcode” the RUGs to increase Medicare
      reimbursement. However, such a practice cannot be ruled out and our study demonstrates
      how vulnerable Medicare is to such a practice.

      There are apparently differences in how people perceive the MDS. Some see it as a
      primary document that does not need to be validated by medical documentation. Others
      feel it must be consistent and validated with the medical record. Clearly, there are
      variations in interpretation in the way people are using the system. We believe any
      inability to validate the resident assessment through the medical record would expose the
      Medicare program to billing abuses. For these reasons, we recommend that HCFA:

      <        more clearly define MDS elements, especially section G;

      <	       provide enhanced and coordinated training to nursing homes to be sure that
               similar and accurate MDS and RUG information is being disseminated; and

      <	       require that nursing homes establish an audit trail to validate the 108 MDS
               elements that drive the RUG code from other parts of the medical record, paying
               particular attention to therapy minutes and activities of daily living.

      The problems we describe in this report will require continuing attention. We plan to
      revisit the prospective payment system in nursing homes after it has been implemented for
      a while.


AGENCY COMMENTS

      We received comments from the Health Care Financing Administration. They concur with
      the first two recommendations and describe a number of important steps they are taking to
      improve understanding and implementation of resident assessment, particularly the MDS.

      However, HCFA does not concur with our third recommendation to establish an audit
      trail to validate the 108 MDS elements. Instead, they plan to fund a Program Safeguard
      Contractor (PSC) to undertake the auditing and verification of MDS reports. They hope
      to combine data validation and program integrity approaches.

      We are certainly open to approaches other than the one used in this study to validate the



  Nursing Home Resident Assessment:RUGs        iii                                   OEI-02-99-00041
    RUG codes and are ready to work with HCFA in analyzing any such alternate methods.
    However, for the time being we see no alternative to relying on a medical record review,
    not just the MDS, to assure correct reimbursement for SNF services.

    We appreciate HCFA’s thoughtful consideration of our report. We wish to emphasize
    again that our work was intended to be an early look to identify potential vulnerabilities
    and issues for further work.

    The Health Care Financing Administration also provided technical comments which we
    have incorporated in the report. The full text of the comments is provided in Appendix G.




Nursing Home Resident Assessment:RUGs        iv                                     OEI-02-99-00041
                          TABLE                         OF             CONTENTS


                                                                                                                                  PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i



INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1



FINDINGS

          Coding differences . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


          Therapy minutes and ADLs                  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


          Concerns with PPS training and staff responsibilities . . . . . . . . . . . . . . . . . . . . . . . . . . 11



RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12



APPENDICES

          A: RUG Classification . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


          B: Confidence Intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


          C: RUG payment statistical test . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


          D: Chi-square . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


          E: RUG Rates . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


          F: Minimum Data Set . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20


          G: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27





     Nursing Home Resident Assessment:RUGs                         v                                                       OEI-02-99-00041
                                  INTRODUCTION

PURPOSE

         To provide an initial review of the integration of the prospective payment system with the
         resident assessment.

BACKGROUND

         The Senate Special Committee on Aging held hearings in the summer of 1998 following
         reports by the Health Care Financing Administration (HCFA) and the General Accounting
         Office (GAO) of serious concerns about nursing home residents' care and well-being.
         Subsequently, the Office of Inspector General (OIG) undertook a series of nursing home
         inspections examining the quality of care in nursing homes. They include trends in
         reported abuse among residents, the role of the ombudsman in protecting residents, the
         capacity of the State survey and certification program, the trends in the Online Survey
         Certification and Reporting System (OSCAR) data, the access of nursing home survey
         results, and access to nursing homes. This report is a part of that series. A companion
         report, “Nursing Home Resident Assessment Quality of Care,” has a more detailed
         analysis of the components of the minimum data set (MDS).

         Generally a nursing home is a residential facility which offers daily living assistance to
         people who are either physically or mentally unable to live independently. Residents are
         provided rooms, meals, assistance with daily living, and, in most cases, some medical
         treatment for those residents who require it.

         Medicare Part A can help pay for skilled nursing facility (SNF) care for up to 100 days in
         a benefit period when a beneficiary meets certain conditions. These conditions include a
         requirement of daily skilled nursing or rehabilitation services, a prior three consecutive day
         stay in a hospital, admission to the SNF within a short period of time after leaving the
         hospital, treatment for the same condition that was treated in the hospital, and a medical
         professional certifying the need for daily skilled nursing or rehabilitation care. In 1990
         Medicare paid $1.7 billion to nursing homes. In 1998 this amount had increased to $10.4
         billion1. Medicare pays only a small portion of the nation’s nursing home bills. Most bills
         are paid by personal funds, purchased long-term care insurance, and Medicaid.

         Medicaid coverage varies among States. Medicaid eligible beneficiaries who require
         custodial care such as help with eating, bathing, taking medicine and toileting, as well as

         1
           U.S. Department of Health and Human Services, Health Financing Administration, Office of the Actuary, National
Health Statistics Group: http://www.hcfa.gov/stats/nhe-oact/tables.


     Nursing Home Resident Assessment:RUGs                  1                                              OEI-02-99-00041
         those who require skilled care may have a nursing home stay paid by Medicaid. Medicaid
         payments to nursing homes in 1996 totaled $40.6 billion. Despite the increase in Medicare
         and Medicaid payments, concern remains about the quality of care in nursing homes.

         In 1986 the Institute of Medicine conducted a study on nursing home regulation and
         reported prevalent problems regarding the quality of care for nursing home residents and
         the need for stronger Federal regulations. In 1987, the GAO reported that over one-third
         of nursing homes were operating under the Federal minimum standards. This report, along
         with widespread concern regarding nursing home conditions, led Congress to pass the
         Omnibus Budget Reconciliation Act (OBRA 1987). As a part of OBRA 1987, Congress
         passed the comprehensive Nursing Home Reform Act (P.L. 100-203), expanding
         requirements that nursing homes have to comply with prior to Medicare or Medicaid
         certification.

         The Resident Assessment

         The Nursing Home Reform Act mandates that nursing homes use a clinical assessment
         tool known as the Resident Assessment Instrument (RAI) to identify residents’ strengths,
         weaknesses, preferences, and needs in key areas of functioning. The RAI is designed to
         help nursing homes thoroughly evaluate residents and to provide each resident with a
         standardized, comprehensive, and reproducible assessment. “With consistent application
         of item definitions, the RAI ensures standardized communication both within the facility
         and between facilities. Basically, when everyone is speaking the same language, the
         opportunity for misunderstanding or error is diminished considerably.”2

         The RAI was developed by a research consortium under contract with the HCFA and
         consists of three key components: the Minimum Data Set (MDS), Triggers and Resident
         Assessment Protocols (RAPs), and Utilization Guidelines. Most States required nursing
         homes to begin implementing the RAI in 1991. It was intended that the RAI be a dynamic
         tool, and HCFA began developing version 2.0 of the RAI in early 1993 which is now in
         use. The HCFA is committed to continuous reviews and updates.

         The RAI is intended to be completed by an interdisciplinary team of nursing home staff
         who gather facts about the residents’ strengths and needs. The interdisciplinary team
         should ideally include dieticians, speech, physical and occupational therapists, social
         workers, pharmacists, and nurses. The attending physician is also an important participant
         in the RAI process providing valuable input on sections of the MDS and RAPs. Federal
         regulations require each individual who completes a portion of the RAI to sign, date, and
         certify its accuracy. Regulations also require that a registered nurse sign and certify that



         2
         U.S. Department of Health and Human Services, Health Care Financing Administration, Long Term Care Resident
Assessment Instrument User’s Manual Version 2.0 October, 1995.


     Nursing Home Resident Assessment:RUGs                2                                            OEI-02-99-00041
         the assessment is complete. Upon completion of the assessment, the information guides
         the team to prepare individualized care plans for each resident.

         The Minimum Data Set

         The MDS 2.0, a component of the RAI, contains a standardized set of essential clinical
         and functional status measures. It must be collected on every resident in the nursing home
         at regular intervals during their nursing home stay regardless of the method of payment.
         Nursing homes are required to “conduct initially and periodically a comprehensive,
         accurate, standardized, reproducible assessment of each resident’s functional capacity.” 3
         All residents must be completely assessed in the first 14 days after admission, promptly
         after a significant change in their physical or mental condition, and at least once every 12
         months. Additionally, all MDS assessments must be reviewed at least every 3 months to
         assure continued accuracy. Since the implementation of the prospective payment system
         there is a more frequent MDS schedule for those residents reimbursed by Medicare Part
         A.

         Resource Utilization Groups and the Prospective Payment System

         A new dimension of issues and concerns was layered upon the resident assessment with
         the advent of the prospective payment system. Effective June 23, 1998, nursing homes
         participating in the Medicare and Medicaid programs are required to electronically submit,
         at least monthly, MDS data to the State for all assessments conducted during the previous
         month. Under the prospective payment system for a Medicare Part A skilled nursing
         facility (SNF) stay, SNFs are required to classify residents into one of 44 Resource
         Utilization Groups (RUGs-III) based on assessment data from the MDS. Each SNF must
         complete the assessments according to a schedule designed for Medicare payment. This
         schedule requires residents, upon admission to a SNF, be assessed on the 5th, 14th, 30th,
         60th, and 90th days of the resident’s stay.

         Under the new prospective payment system, SNFs will know in advance how much HCFA
         will pay for each Medicare patient. The prospective payment system was phased into
         nursing homes in July of 1998, and all nursing homes were expected to comply with the
         new system in January of 1999. Some States are currently using a PPS system for
         Medicaid reimbursement, while others are considering adopting it in lieu of their existing
         systems.

         The RUG-III classification is based on residents’ resource needs and is divided into seven
         major categories: rehabilitation, extensive services, special care, clinically complex,
         impaired cognition, behavior problems, and reduced physical function. Payment rates are


         3
         U.S. Department of Health and Human Services, Health Care Financing Administration, Long Term Care Resident
Assessment Instrument User’s Manual Version 2.0 October, 1995


     Nursing Home Resident Assessment:RUGs                3                                            OEI-02-99-00041
          further differentiated between and within the seven major categories. Facility differences
          in case-mix and for geographic variations in wages are also incorporated into the payment
          rates. The HCFA conducted a demonstration project to determine the appropriate
          payment rates.

          In a memorandum released in May 1999, HCFA gives instructions to the fiscal
          intermediaries which outlines the process to be used for medical record review for PPS
          claims. All fiscal intermediaries are to review Medicare SNF PPS claims. The goal is to
          identify inappropriate payments. It states that the Medicare bill must be supported by the
          appropriate provider documentation including “the MDS, the medical record including
          physician, nursing, and therapy documentation, and the beneficiary’s billing history.” 4
          This requirement is reinforced by another memorandum released in March 2000 which
          refers to proper documentation including “hospital discharge summaries and transfer
          forms; physician orders and progress notes; patient care plans; patient assessment
          instrument (MDS); nursing and rehabilitation therapy notes; and treatment and flow charts
          and vital sign records; weight charts and medication records.” 5

          MDS Coordination

          When Medicare reimbursement became linked to resident assessments, the role of the
          MDS coordinator became more vital to nursing homes. MDS coordinators are generally
          registered nurses who oversee the assessments and paperwork in order to guarantee
          proper completion. The MDS coordinators are able to mesh a combined effort of an
          interdisciplinary staff to produce the written and electronic documents necessary for
          Medicare reimbursement. The MDS coordinator is also responsible for ensuring that each
          resident’s MDS is coded accurately so that the nursing home is financially able to provide
          all necessary services.

          In addition, MDS coordinators affect the quality of care of the residents. Completing a
          thorough and accurate comprehensive assessment enables the nursing home to provide
          appropriate plans of care for each resident. The MDS coordinators can provide a global
          picture of each resident and can spot weaknesses in their plans of care.

          Prior Studies

          The Research Triangle Institute completed a study in 1995 entitled “Evaluation of the
          Nursing Home Resident Assessment Instrument” that examined the effect of the resident
          assessment instrument on quality of care in nursing homes. One finding suggested that


          4
            Program Memorandum Intermediaries, transmittal No. A-99-20. Department of Health and Human Services, Health Care Financing
Administration, May 1999.

          5
            Program Memorandum Intermediaries, transmittal No. A-00-08. Department of Health and Human Services, Health Care Financing
Administration, March 2000.


     Nursing Home Resident Assessment:RUGs                          4                                                    OEI-02-99-00041
          administrators and directors of nursing positively accepted the RAI and believed it helped
          individualize the plans of care. Another key finding suggested that overall quality of care
          and care planning improved in nursing homes when the RAI was implemented. In
          addition, the study indicated that the RAI significantly reduced hospitalization rates and
          improved resident outcomes in certain areas.

          However, recent reports by the Office of Inspector General6 and another researcher7 found
          that the failure to provide comprehensive assessments was among the 10 most frequently
          cited deficiencies in nursing homes. A 1996 study for HCFA reported that between 25
          and 30 percent of nursing homes were deficient in their development of comprehensive
          assessments and/or comprehensive care plans.

METHODOLOGY

          This inspection is based on information gathered from three different sources: a medical
          review of nursing home medical records from a sample of 640 nursing home residents, a
          self-administered survey of 64 nursing home MDS coordinators, and a telephone survey of
          64 nursing home administrators. We conducted our field work between June and August
          1999.

          Sample Selection

          We selected Medicare, Medicaid, and private pay nursing home residents using a three-
          stage stratified, cluster sample. First, we selected a stratified sample of eight States to
          include the four States with the most certified nursing home beds (California, New York,
          Texas, and Illinois), two States randomly selected from the four currently using a
          prospective payment system for Medicaid reimbursement in a HCFA demonstration
          project (Mississippi and Maine), and two States randomly selected from the remaining 40
          States (Connecticut and Virginia).

          Skilled nursing facilities refers to nursing homes that participate in Medicare. Nursing
          facilities refers to nursing homes certified to participate in Medicaid. For the purposes of
          this study, we will refer to Medicare, Medicaid, and private pay facilities as nursing homes
          because we included all payor types for the sample selection.

          Next, we randomly chose eight nursing homes in each of the eight sample States,
          excluding nursing homes with a bed count of less than 60 to ensure a sufficient number of
          residents who fit the selection criteria. Finally, we randomly selected 10 residents in each

          6
              Department of Health and Human Services, Office of Inspector General, Office of Evaluations and Inspections,
Nursing Home Survey and Certification: Deficiency Trends OEI-02-98-00330, March 1999.

          7
             Charlene Harrington, Ph.D. The Regulation and Enforcement of Federal Nursing Home Standards, 1991-1996 University of
California, Department of Social and Behavioral Sciences, March 1998.


     Nursing Home Resident Assessment:RUGs                          5                                                    OEI-02-99-00041
    nursing home for a total of 640 residents. This selection was made from all nursing home
    residents who were in the 64 sample nursing homes in December 1998, regardless of
    payment source. These residents were admitted to the nursing home between July 1998
    and December 1998. We selected the 14 day admission assessment completed for the
    resident from July to December 1998 and reviewed all the medical records prior to this
    assessment. Data for all samples were weighted and projected to the universe.

    Medical Review and Analysis

    Comparison with the medical record. We obtained the services of a medical review
    contractor who employed nurses with experience in completing the MDS in nursing homes
    and in consulting and training on the MDS process to conduct the review. These nurses
    visited each nursing home and completed a 14 day assessment based on the resident’s
    medical record for the same 14 day time period. In doing so, our reviewers did not refer
    to the original MDS during their review nor did they contact the residents or the staff to
    complete their assessments. They were instructed to complete each field of the
    assessment only if there was sufficient and reliable information in the medical record to
    warrant a determination. Subsequently, we made a comparison of the results for each
    field. In this way, we were able to determine if the nursing homes’ resident assessment
    was consistent with the rest of the medical record.

    Nine residents did not fit our selection criteria, thus leaving a sample of 631 residents. All
    but three completed copies of the MDS were forwarded to us by the nursing home. The
    nurses were unable to complete some fields in the MDS due to lack of information in the
    medical record8. Most of these fields required information that was inappropriate for a 14
    day assessment. All other fields had sufficient information for our reviewers to complete
    the MDS.

    The methodology is useful to identify differences between what our reviewers would have
    entered in the MDS based on a review of the other medical records, versus what the
    facility nurses observed in the actual physical assessment of the patient. Our method does
    not permit a specific determination of why the differences occurred -- e.g., an error in the
    MDS review by the observing nurse, an error or omission in the medical record, or simply
    an honest difference of opinion given a similar set of facts. However, overall such
    differences might highlight the need to take steps to ensure greater consistency.

    Generation of RUGs. In addition, the reviewers generated a RUG based on their
    prepared MDS to compare to the RUG generated by the facility. Because we included all
    payer sources in our sample, we were able to compare RUGs for 228 beneficiaries. The
    remaining 403 beneficiaries had no RUG information on the copy of the MDS forwarded
    to us. Medicaid and private pay residents are not required to be grouped in a RUG. In


    8
     These fields include B6, C7, E3, E5, G3a, G9, H4, I3, K3, N5a, R1a, R1b, and R1c.


Nursing Home Resident Assessment:RUGs                          6                         OEI-02-99-00041
    addition, some nursing homes had yet to begin using PPS for reimbursement. In order to
    compare differences in reimbursement rates between our reviewers and the nursing home,
    we calculated RUG rates of our reviewers and the nursing homes based on case-mix
    adjusted Federal rates for northeast, urban nursing homes.

    Surveys

    We sent a self-administered questionnaire to each MDS coordinator in the 64 nursing
    homes in our sample and asked questions regarding the implementation of the resident
    assessment and plans of care. We had a 100 percent response rate from the MDS
    coordinators. We obtained information regarding the characteristics, training, and
    coordination of the staff who complete the assessments and plans of care. In addition, we
    looked at the structures and processes the staff use to perform the resident assessment and
    their satisfaction with the process.

    Interviews

    We conducted structured telephone interviews in July 1999 with nursing home
    administrators in each of the 64 sample nursing homes. We had a 100 percent response
    rate. We asked them questions regarding the implementation of the resident assessment
    and plans of care. During these interviews, we also obtained information from them
    regarding the characteristics, training, and coordination of the staff who complete the
    assessments and plans of care. We also looked at the structures and processes the staff
    used to fulfill the resident assessment instrument requirements and their satisfaction with
    the process.

    Limitations

    The results of this analysis are limited by the information available in the medical record.
    In some cases, the nursing home completes the MDS based on observation of or
    discussion with the resident about which there may not be any other information in the
    medical record.

    For Section P: Special Treatment and Procedures, which includes minutes of occupational
    and physical therapy given in the last 7 days, the reviewer compared the therapy logs to
    the MDS. In some cases, the logs were kept in units of 15 minutes. The reviewers
    converted the units to minutes.

    This inspection was conducted in accordance with the Quality Standards for
    Inspections issued by the President’s Council on Integrity and Efficiency.




Nursing Home Resident Assessment:RUGs         7                                      OEI-02-99-00041
                                          FINDINGS

Coding differences exist: both upcoding and downcoding

      Resource Utilization Groups, or RUGs, flow from the Minimum Data Set (MDS) and
      drive Medicare reimbursement to nursing homes under the Prospective Payment System
      (PPS). A resident is initially assigned to one of the seven major categories of RUGs based
      on their clinical characteristics and functional abilities. Upon completion of the MDS,
      Medicare residents are further classified into 1 of 44 minor RUGs categories. See
      Appendix A for a complete listing of RUGs.

      For 46 percent of the residents, the nursing home coded the resident in a RUG that was
      higher than our reviewer. For the remaining 30 percent, the nursing home coded the
      residents in a RUG that was lower than our reviewer. See Chart 1. See Appendix B for
      confidence intervals.

                                                 Chart 1




                                          RUG Coding

                                                            24%

                                          46%




                                                           30%




                                                Matching RUG
                                                Higher RUG
                                                Lower RUG

                                                                  Source: Medical Record Review




  Nursing Home Resident Assessment:RUGs            8                                    OEI-02-99-00041
         In order to determine the potential effect of these differences on reimbursement, we

         created a model based on assumptions. We assumed that the prospective payment system

         was fully implemented and all nursing homes in the sample were in the urban northeast. 

         Using the case-mix adjusted Federal rates for the northeast, we found no statistically

         significant effect. See Appendix C. 


         We looked at some characteristics that might explain the variation in coding. Nursing 

         homes that are not a member of a chain organization are more likely than those that are a

         part of a chain organization to have RUG determinations different from our reviewers.

         Eighty-two percent of non-chain nursing homes, compared to 72 percent of chain nursing

         homes had differences between the nursing homes and our reviewers in the RUG codes.

         There was not a significant difference between rural or urban nursing homes. See

         Appendix D. Seven of the eight states in our sample had at least one nursing home that

         coded all of their residents in a different RUG than our reviewer. 


         Special rehabilitation, the largest of the 7 major RUG categories, is composed of 14 of the

         44 RUGs. Physical, speech, or occupational therapy are clinical indicators that identify

         residents in the Special Rehabilitation category. Each RUG is given a number value that

         corresponds to the complexity of the diagnosis, symptoms, and treatment. 

         Nursing homes are more likely than our reviewers to code the residents in the Special

         Rehabilitation RUGs. Thirty-seven percent of all residents coded in a higher

         reimbursement level were assigned to the Special Rehabilitation RUG category. While the

         remaining 9 percent of all other residents who were coded higher by the nursing home fell

         into the remaining 6 major RUG categories: Extensive Care, Special Care, Clinically

         Complex, Cognitively Impaired, Behavior Problems, and Reduced Physical Functions.


         In addition to this RUG group being the largest and generating the highest payments,

         “Special Rehabilitation” is notable because a previous OIG study found that nursing

         homes prefer special rehabilitation patients9. Discharge planners who were interviewed

         said that patients who require rehabilitation therapy are easier to place. They explained

         that these patients generally have short stays and become independent in activities of daily

         living quickly. In another report, 46 percent of nursing home administrators report that

         special rehabilitation patients such as physical, occupational, or speech therapy recipients

         are more likely to be admitted for care10. 





         9
           Department of Health and Human Services, Office of Inspector General, Office of Evaluations and Inspections,
Early Effects of the Prospective Payment System on Access to Skilled Nursing Facilities (OEI-02-99-00400), August 1999

         10
             Department of Health and Human Services, Office of Inspector General, Office of Evaluations and Inspections,
Early Effects of the Prospective Payment System on Access to Skilled Nursing Facilities: Administrators’ Perspective (OEI-02-
99-00401), October 1999


     Nursing Home Resident Assessment:RUGs                    9                                              OEI-02-99-00041
Therapy minutes and activities of daily living are keys to RUG
differences

       Minutes of therapy given to the residents is a key driver of the rehabilitation RUG
       reimbursement. Minutes of both occupational and physical therapy given in the last 7 days
       are two fields that are included in Section P: Special Treatment and Procedures. The
       nursing home completes the MDS by recording the time the beneficiary spent receiving
       therapy. The therapy log includes both the time the beneficiary spent receiving therapy
       and other related activities. Our reviewers compared the number of minutes on the MDS
       to the time in the therapy logs and determined a difference to exist when the therapy time
       did not match. Thus, some difference is anticipated between the log and the MDS. One
       would expect the log to be higher than the MDS. However, we found that in most cases
       the MDS is higher. The nursing home more often coded the resident with more therapy
       minutes on their copy of the MDS than the therapy logs indicate.

       More specifically, of the 39 percent difference rate in occupational therapy, 31 percent of
       the records were coded with higher rates than the therapy logs while only 9 percent were
       coded lower. Of the 46 percent difference rate in physical therapy, 34 percent were coded
       higher with only 12 percent coded lower. The overall difference rates of occupational and
       physical therapy are well above the 15 percent difference rate average of all 108 elements.
       See Appendix B for confidence intervals.

       A resident’s functional status is measured by an index of activities of daily living (ADLs)
       and the number and types of services used. The ADL index is based on scores in MDS
       Section G, Physical Functioning and Structural Problems. This includes bed mobility,
       transfer, eating, and toilet use.

       Section G has a 37 percent difference rate making it the highest difference rate of all
       sections used to develop the RUGs. All seven fields in Section G used in the RUG
       computation have a difference rate of at least 28 percent. Section G includes assessments
       for both self-performance and support. The self-performance section assess the degree to
       which a resident can perform an activity independently. The support assessment describes
       the nature and extent of the support provided. Some specific examples include the self-
       performance assessment of bed mobility which has a 36 percent difference rate and the
       support assessment of bed mobility which has a 33 percent difference rate. The self-
       performance difference rate for transfers is 40 percent, and the support difference rate is
       36 percent.

       Forty percent of the nursing home MDS coordinators report Section G is the most
       difficult to complete. When asked to indicate which section they would change, 20 percent
       report they would change Section G. Some explained that the “staff views capabilities
       differently [and the capabilities] remain subjective” and they “would like

   Nursing Home Resident Assessment:RUGs        10                                     OEI-02-99-00041
      more well-defined levels.”

Concerns were raised regarding PPS training and additional staff
responsibility

      Ninety-three percent of MDS coordinators and 98 percent of nursing home administrators
      report that the introduction of PPS has given additional responsibilities to existing staff.
      Further, about 40 percent of administrators and MDS coordinators note that new staff has
      been hired to handle PPS.

      Twenty-eight percent of MDS coordinators and administrators feel that the staff was
      inadequately trained about the Medicare PPS. Some cite that there was confusion and
      misunderstanding in the initial training sessions and express a need for additional training.
      Twenty-seven percent of MDS coordinators note that they receive on-going training and
      60 percent of administrators say they have plans for additional PPS training sessions.
      Almost all MDS coordinators and administrators state that the staff received initial PPS
      training. Most MDS coordinators include formal workshops outside the nursing homes as
      part of their initial training. Other initial training includes informal on-the-job training,
      reading and referring to the manual, and formal training provided in the nursing home.

      Administrators and MDS coordinators state that they receive training from private
      consultants, corporate offices, HCFA, and the fiscal intermediary. Eighty-seven percent of
      administrators feel that they have adequate resources available about PPS. They cite
      corporate offices, consultants, the fiscal intermediary, and magazines and books as
      resources used when they have questions.




  Nursing Home Resident Assessment:RUGs        11                                     OEI-02-99-00041
                      RECOMMENDATIONS


      This is an early alert raising concerns about the accuracy of the RUG codes. The fact
      that coding differences are both higher and lower indicates confusion or difficulties in
      implementing the MDS rather than an effort to “upcode” the RUGs to increase Medicare
      reimbursement. However, such a practice cannot be ruled out and our study demonstrates
      how vulnerable Medicare is to such a practice.

      There are apparently differences in how people perceive the MDS. Some see it as a
      primary document that does not need to be validated by medical documentation. Others
      feel it must be consistent and validated with the medical record. Clearly, there are
      variations in interpretation in the way people are using the system. We believe any
      inability to validate the resident assessment through the medical record would expose the
      Medicare program to billing abuses. For these reasons, we recommend that HCFA:

      <        more clearly define MDS elements, especially section G;

      <	       provide enhanced and coordinated training to nursing homes to be sure that
               similar and accurate MDS and RUG information is being disseminated; and

      <	       require that nursing homes establish an audit trail to validate the 108 MDS
               elements that drive the RUG code from other parts of the medical record, paying
               particular attention to therapy minutes and activities of daily living.


      The problems we describe in this report will require continuing attention. We plan to
      revisit the prospective payment system in nursing homes after it has been implemented for
      a while.


AGENCY COMMENTS

      We received comments from the Health Care Financing Administration. They concur with
      the first two recommendations and describe a number of important steps they are taking to
      improve understanding and implementation of resident assessment, particularly the MDS.

      However, HCFA does not concur with our third recommendation to establish an audit
      trail to validate the 108 MDS elements. Instead, they plan to fund a Program Safeguard
      Contractor (PSC) to undertake the auditing and verification of MDS reports. They hope



  Nursing Home Resident Assessment:RUGs        12                                   OEI-02-99-00041
    to combine data validation and program integrity approaches.

    We are certainly open to approaches other than the one used in this study to validate the
    RUG codes and are ready to work with HCFA in analyzing any such alternate methods.
    However, for the time being we see no alternative to relying on a medical record review,
    not just the MDS, to assure correct reimbursement for SNF services.

    We appreciate HCFA’s thoughtful consideration of our report. We wish to emphasize
    again that our work was intended to be an early look to identify potential vulnerabilities
    and issues for further work.

    The Health Care Financing Administration also provided technical comments which we
    have incorporated in the report. The full text of the comments is provided in Appendix G.




Nursing Home Resident Assessment:RUGs        13                                     OEI-02-99-00041
                                             APPENDIX A




Nursing Home Resident Assessment:RUGs   14       OEI-02-99-00041
                                                                         APPENDIX B


                      Confidence Intervals for Key Findings

    We calculated confidence intervals for the key findings. The point estimate and 95 percent
    confidence interval are given for each of the following findings. The point estimates and
    confidence intervals for the findings vary based on the standard error for each individual
    finding.

                     KEY FINDINGS                      POINT         CONFIDENC
                                                     ESTIMATE        E INTERVAL
     Percent of matched RUGs                             24%              +/-9%
     Percent of mismatched RUGs                          76%              +/-9%
     NH coded higher and coded Special                   37%             +/-14%
     Rehabilitation
     Difference rate of physical therapy                 46%              +/-5%
     Difference rate of occupational therapy             39%             +/-11%
     Difference rate of 108 MDS elements                 15%              +/-4%




Nursing Home Resident Assessment:RUGs       15                                    OEI-02-99-00041
                                                                              APPENDIX C


                          Statistical Tests for RUG Payment

    It is not possible to make a precise dollar projection without using a model based on
    assumptions. The prospective payment system for nursing homes is in transition until
    2002. Currently, nursing homes are reimbursed using a mixed rate composed of part
    federal rates and part rates based on individual nursing homes’ previous cost base. In
    addition, at the time we pulled our sample, December 1998, not all nursing homes had
    converted to PPS, and billing information was not widely available.

    In order to determine the potential difference in reimbursement, we constructed a payment
    model based on assumptions. We used urban, northeast case-mix adjusted federal rates for
    residents in all nursing homes and assumed that PPS was fully implemented for all of our
    nursing homes. We then projected reimbursement based on the RUG and payment
    associated with that RUG. See Appendix E for payment rates. At the 95 percent
    confidence level, the difference is not statistically significant.




             Dollar                       Dollar        Confidence Interval
             Projections of             Projection
             Coding
             Nursing Home               $27,388,79   $17,902,544 - $36,875,052
                                             8
             Our Reviewer               $25,005,87   $18,142,667 - $31,869,077
                                             2




Nursing Home Resident Assessment:RUGs           16                                OEI-02-99-00041
                                                                          APPENDIX D


                          Statistical Tests for Key Findings


    We computed Chi-square values for differences in urban and rural nursing homes and the
    differences in RUG determinations different from our reviewers. We also looked at the
    differences between chain and non-chain nursing homes and the differences in RUG
    determinations. As shown in the table below, some variables are statistically significant
    and some variables are not.



             Variable               Degrees   Chi-Square   Significant Difference
                                       of                     in RUG coding
                                    Freedom
      Urban vs. Rural                   1          .57              No
      Chain vs. Non-chain               1          8.50             Yes




Nursing Home Resident Assessment:RUGs         17                                    OEI-02-99-00041
                                                             APPENDIX E


           RUG Rates: Case-Mix Adjusted Rates for Northeast
                        Urban Nursing Homes


                              RUG Category          Rate
                                        RUC        $384.21
                                        RUB        $345.90
                                        RUA        $327.28
                                        RVC        $296.15
                                        RVB        $286.30
                                        RHC        $271.53
                                        RMC        $267.34
                                        RVA        $261.12
                                        SE3        $252.91
                                        RHB        $249.64
                                        RMB        $238.87
                                        RHA        $228.84
                                        RMA        $224.64
                                        SE2        $218.97
                                        RLB        $212.95
                                        SE1        $194.88
                                        SSC        $190.50
                                        CC2        $189.41
                                        SSB        $181.74
                                        RLA        $179.01


Nursing Home Resident Assessment:RUGs         18                 OEI-02-99-00041
                                        SSA        $177.36
                                        CC1        $175.18
                                        CB2        $166.42
                                        CB1        $158.75
                                        CA2        $157.66
                                        PE2        $153.28
                                        PE1        $151.09
                                        CA1        $148.90
                                        PD2        $145.62
                                        PD1        $143.43
                                        IB2        $142.33
                                        BB2        $141.24
                                        IB1        $140.14
                                        BB1        $137.95
                                        PC2        $137.95
                                        PC1        $136.86
                                        IA2        $129.19
                                        BA2        $128.10
                                        IA1        $124.81
                                        PB2        $122.62
                                        PB1        $121.53
                                        PA2        $120.44
                                        BA1        $119.34
                                        PA1        $117.15




Nursing Home Resident Assessment:RUGs         19             OEI-02-99-00041
                                                                       APPENDIX F


                                        Minimum Data Set

    In this appendix we have included a complete copy of the Minimum Data Set.




Nursing Home Resident Assessment:RUGs          20                                OEI-02-99-00041
Nursing Home Resident Assessment:RUGs   21   OEI-02-99-00041
Nursing Home Resident Assessment:RUGs   22   OEI-02-99-00041
Nursing Home Resident Assessment:RUGs   23   OEI-02-99-00041
Nursing Home Resident Assessment:RUGs   24   OEI-02-99-00041
Nursing Home Resident Assessment:RUGs   25   OEI-02-99-00041
Nursing Home Resident Assessment:RUGs   26   OEI-02-99-00041
                                                                         APPENDIX G


                            Comments on the Draft Report


    In this appendix, we present in full the comments from the Health Care Financing
    Administration.




Nursing Home Resident Assessment:RUGs      27                                    OEI-02-99-00041
Nursing Home Resident Assessment:RUGs   28   OEI-02-99-00041
Nursing Home Resident Assessment:RUGs   29   OEI-02-99-00041
Nursing Home Resident Assessment:RUGs   30   OEI-02-99-00041
Nursing Home Resident Assessment:RUGs   31   OEI-02-99-00041
Nursing Home Resident Assessment:RUGs   32   OEI-02-99-00041
